<html>
<title> - RUSSIAN DISINFORMATION ATTACKS ON ELECTIONS: LESSONS FROM EUROPE</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


    RUSSIAN DISINFORMATION ATTACKS ON ELECTIONS: LESSONS FROM EUROPE

=======================================================================

                                HEARING

                               BEFORE THE

      SUBCOMMITTEE ON EUROPE, EURASIA, ENERGY, AND THE ENVIRONMENT

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             July 16, 2019

                               __________

                           Serial No. 116-55

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       


       Available:  http://www.foreignaffairs.house.gov/, http://
                            docs.house.gov, 
                       or http://www.govinfo.gov
                       
                       
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
37-051PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c0b0af80a3b5b3b4a8a5acb0eea3afadee">[email&#160;protected]</a>                              
                       
                      
                       
                       
                      COMMITTEE ON FOREIGN AFFAIRS

                   ELIOT L. ENGEL, New York, Chairman
                   
BRAD SHERMAN, California             MICHAEL T. McCAUL, Texas, Ranking 
GREGORY W. MEEKS, New York               Member
ALBIO SIRES, New Jersey		     CHRISTOPHER H. SMITH, New Jersey     
GERALD E. CONNOLLY, Virginia         STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida	     JOE WILSON, South Carolina
KAREN BASS, California		     SCOTT PERRY, Pennsylvania
WILLIAM KEATING, Massachusetts	     TED S. YOHO, Florida
DAVID CICILLINE, Rhode Island	     ADAM KINZINGER, Illinois
AMI BERA, California		     LEE ZELDIN, New York
JOAQUIN CASTRO, Texas		     JIM SENSENBRENNER, Wisconsin
DINA TITUS, Nevada		     ANN WAGNER, Missouri
ADRIANO ESPAILLAT, New York          BRIAN MAST, Florida
TED LIEU, California		     FRANCIS ROONEY, Florida
SUSAN WILD, Pennsylvania	     BRIAN FITZPATRICK, Pennsylvania
DEAN PHILLPS, Minnesota	             JOHN CURTIS, Utah
ILHAN OMAR, Minnesota		     KEN BUCK, Colorado
COLIN ALLRED, Texas		     RON WRIGHT, Texas
ANDY LEVIN, Michigan		     GUY RESCHENTHALER, Pennsylvania
ABIGAIL SPANBERGER, Virginia	     TIM BURCHETT, Tennessee
CHRISSY HOULAHAN, Pennsylvania       GREG PENCE, Indiana
TOM MALINOWSKI, New Jersey	     STEVE WATKINS, Kansas
DAVID TRONE, Maryland		     MIKE GUEST, Mississippi
JIM COSTA, California
JUAN VARGAS, California
VICENTE GONZALEZ, Texas                              
                             
                                     
                Jason Steinbaum, Democrat Staff Director
               Brendan Shields, Republican Staff Director                   
                   
                   
                                   ------                                

      Subcommittee on Europe, Eurasia, Energy, and The Environment

                WILLIAM KEATING, Massachusetts, Chairman
                
ABIGAIL SPANBERGER, Virginia         ADAM KINZINGER, Illinois, Ranking 
GREGORY MEEKS, New York                  Member
ALBIO SIRES, New Jersey		     JOE WILSON, South Carolina
THEODORE DEUTCH, Florida	     ANN WAGNER, Missouri
DAVID CICILLINE, Rhode Island	     JIM SENSENBRENNER, Wisconsin
JOAQUIN CASTRO, Texas		     FRANCIS ROONEY, Florida
DINA TITUS, Nevada		     BRIAN FITZPATRICK, Pennsylvania
SUSAN WILD, Pennsylvania	     GREG PENCE, Indiana
DAVID TRONE, Maryland		     RON WRIGHT, Texas
JIM COSTA, California		     MIKE GUEST, Mississippi
VICENTE GONZALEZ, Texas		     TIM BURCHETT, Tennessee

                                  

                    Gabrielle Gould, Staff Director
                
                              C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Fried, The Honorable Daniel, Distinguished Fellow, Future Europe 
  Initiative and Eurasia Center, Atlantic Counsel (Former State 
  Department Coordinator for Sanctions Policy, Former Assistant 
  Secretary of State for European and Eurasian Affairs, and 
  Former United States Ambassador to Poland).....................     7
Aro, Ms. Jessikka, Investigative Reporter, Yle Kioski............    20
Kalensky, Mr. Jakub, Senior Fellow, Eurasia Center, Atlantic 
  Council........................................................    33
Kagan, Dr. Frederick W., Resident Scholar and Director, Critical 
  Threats Project, American Enterprise Institute.................    51

                                APPENDIX

Hearing Notice...................................................    72
Hearing Minutes..................................................    73
Hearing Attendance...............................................    74

 
    RUSSIAN DISINFORMATION ATTACKS ON ELECTIONS: LESSONS FROM EUROPE

                         Tuesday, July 16, 2019

                       House of Representatives,

                    Subcommittee on Europe, Eurasia,

                      Energy, and the Environment,

                     Committee on Foreign Affairs,

                                     Washington, DC

    The subcommittee met, pursuant to notice, at 2:21 p.m., in 
room 2172, Rayburn House Office Building, Hon. William R. 
Keating (chairman of the subcommittee) presiding.
    Mr. Keating. The hearing will come to order.
    I want to thank the members that made it up from the last 
roll call. We were delayed a bit as a result of a roll call. I 
want to thank our witnesses for their patience in that regard.
    Our national elections are just 15-plus months away. Just 
this week, AP reported describing how voting systems across our 
country still rely on old software that is vulnerable to 
hackers. The list of threats to our elections are numerous, and 
it is our job to address the weaknesses with the utmost haste 
and diligence.
    Our intelligence community is united in its findings that 
the U.S. will once again face Russian threats to our elections 
and our democratic process, and other countries could indeed 
follow suit. We know countries like China are already stepping 
up disinformation efforts on their own.
    Today's hearing is on Russia's attacks on democratic 
elections through targeted disinformation campaigns and the 
takeaways from Europe where this activity has been accelerating 
for years. It is on what the EU and the European countries are 
doing themselves, what has been effective, what has not been, 
lessons learned.
    The United States awoke to the threat from Russian 
disinformation as a result of the interference in the 2016 
Presidential elections. Yet this malign tactic is nothing new 
for our allies and partners in Europe who have experienced 
disinformation campaigns since the time of the Soviet Union.
    Based on this experience and after Russia's invasion of 
Ukraine in 2014, Finland put in place a whole government 
strategy to combat Russian disinformation and increase the 
resiliency of its population against these attacks.
    We are lucky today to be joined by Ms. Jessikka Aro, who is 
a journalist from Finland and has reported extensively on this 
topic. And while it was rescinded under questionable 
circumstances, she would have received an International Women 
of Courage award earlier this year for her work exposing the 
network of pro-Kremlin trolls linked to the Russian Internet 
Research Agency, a Russian institution which, as we all know, 
was heavily involved in the 2016 Russian interference in our 
election. That was detailed in part one of the Special Counsel 
Mueller report.
    Finland is not alone. Following numerous elections and 
referenda where Russia and Russian-supported actors spread 
disinformation and stoked conflict between and around public 
debates, including in the recent EU parliamentary elections, 
the European Union and its member States have since deployed 
strategies to combat Russia's malign influence.
    U.S. elections are the very bedrock of our democracy. And 
as Members of Congress, we have shown an oath to uphold that 
kind of protection of our democracy.
    Russian interference undermines our elections, as well as 
those of other countries around the world, while stoking anti-
Western sentiment and threatening our alliances and our 
security. We have to do more.
    In today's hearing we examine the lessons from our allies 
in Europe and we will explore areas where transatlantic 
cooperation serve us in advancing our response to Russian 
election meddling here at home.
    We are faced by different types of disinformation, 
different actors who perpetuate it. Different options for 
trying to stop it have been put into place, but there are 
efforts to even destabilize those types of efforts.
    This is where learning from our European partners comes 
into play. While there have been steep challenges in their 
effort to combat Russia's disinformation activities, we could 
build on their progress and start moving much more aggressively 
to address this here at home.
    So today I hope we can learn more about what has worked, 
what has not worked, what opportunities exist to engage with 
civil society, social media companies, our legal system, 
multilateral institutions, how countries are increasing their 
resilience through media literacy programs, even some of those 
at the grade school level.
    And this is important: How investigative journalism has 
helped expose Russian disinformation and what we need to do to 
protect those individuals who take on great risk to defend the 
democratic institutions that we all depend on to safeguard our 
freedoms.
    Just as we are seeing in Europe, we will likely need to 
adjust course from time-to-time, monitor to make sure 
protections against disinformation do not veer toward unjustly 
restricting freedom of speech or failing to appropriately 
respect privacy concerns.
    Our enemies use our freedoms as a type of sanctuary. 
However, we have to do more. So as soon as it is possible, on a 
number of fronts, we will move forward.
    Our efforts to date, as a government, and the efforts among 
social media companies and other private sectors, have been 
woefully lacking compared to the threat we face.
    I would like to thank the witnesses for joining us and some 
for traveling great distances to be here today. Your testimony 
and expertise are greatly appreciated. I hope that we can come 
away with some concrete next steps to guard against Russian 
disinformation campaigns here at home and those affecting our 
allies overseas.
    With that, I would like to recognize the ranking member, 
and then I will go through some of the ground rules of this 
hearing.
    So I recognize the ranking member, Mr. Kinzinger.
    Mr. Kinzinger. Thank you, Mr. Chairman.
    And thank you to the panel for joining us today. You have 
all great reputations, your work proceeds you, and we are 
excited to have you here with us.
    Prior to the 2016 election, Russia engaged in one of the 
most sophisticated information operations to date against the 
United States. Regardless of your opinion of the Mueller report 
and reading the first part of that and seeing the depth of 
Russian attempts is eye opening, to be involved in this 
election, as well as elections in other parts of the world.
    This was not the first time that Russia has used 
disinformation or malign influence to interfere in the 
democratic process of Western society and I guarantee it will 
not be the last. Russian trolls will amplify any message that 
seeks to divide Western democracy and sow discord and chaos.
    From supporting Code Pink and fascist groups in the United 
States to spreading anti-European Union and anti-NATO messages 
across Europe, Vladimir Putin's goal is to divide the bond that 
holds democratic nations together. As long as Putin's hold on 
power remains unchallenged, he will continue to meddle in 
Western democracy.
    I believe that we must go on the offensive. While Vladimir 
Putin won a sham reelection and will be in office until 2025, 
the State Duma is slated to have an election in 2021. That 
means that the United States has just over 2 years to highlight 
how Putin's corrupt tactics have stolen money from the Russian 
population, devaStated their economy, and ostracized their 
nation from the West.
    From an economic standpoint, Russia's GDP of $1.65 trillion 
is dwarfed by that of the United States and the European Union, 
which sits around the $40 trillion mark. However, in far-off 
places like Venezuela, Syria, Ukraine, Georgia, and across the 
Baltic and Balkan regions, Russia can use little capital to 
extract unproportionate pressure.
    Take Ukraine, for example, where Russian propaganda 
targeted a joint U.S.-Ukrainian training exercise claiming that 
American troops were going to provoke protests across Ukraine 
to interfere in their electoral process. While this operation 
was easily debunked, it shows how the Russians use a handful of 
hackers to spread lies through social media. However, other 
operations take decades of planning and complex support 
networks to execute.
    It has been almost 25 years since the Dayton Peace 
Agreement ended the war in Bosnia and Herzegovina. However, 
Russia has used this time to support nationalist politicians 
within the republic, the main belligerents of the Bosnian war 
that employed genocide and killed over 100,000 people.
    Last October, Bosnia held legislative elections. Since they 
have been unable to form a government, given disagreements 
between pro-Western political parties and the nationalist Serb 
parties over what the relationship Bosnia should have with 
NATO.
    Staunch anti-NATO sentiment and threatened cessation from 
Bosnia has been a staple of the Russian-backed Alliance of the 
Independent Social Democrats, who have, in effect, been 
blocking the government formation over NATO accession.
    The Europeans have abandoned Bosnia, and the United States 
cannot carry all the weight. If we want to counter Russian 
malign operations, we must do so in conjunction with our 
European allies. We must show Bosnia and other nations being 
tempted by Putin that Western democracy is a far better option 
than the tyrannical Russian system.
    Examples like Bosnia and Ukraine show why holding a hearing 
to expose Russian malign influence is so important.
    And I want to put a bit of an emphasis on having recently 
met with representatives from the Balkan region, from all 
areas, every one of them mentioned, without exception, that the 
United States is basically the only partner standing strong 
with them against the Russians.
    And that is not our backyard. That is Europe's backyard. 
Europe has a responsibility to step up and do more as well. 
This cannot be a U.S.-only operation, but we are happy to lead 
with our European friends.
    And I thank last I will say this. Part of exposing Russian 
disinformation is understanding that if you see a news report 
or a media report that seems way too crazy, it probably is. 
Many of us here have been involved in or had written articles 
about us by Russian trolls that are then posted by Sputnik or 
RT and retweeted multiple times until it becomes mainstream.
    By the way, did you know that I helped create ISIS, 
according to some RT story that was put out there?
    So that said, understanding the idiocy of some of the stuff 
you read is the first step to pushing back against Russian 
disinformation, because without that they have no other weapon.
    So with that, Mr. Chairman, I yield back.
    Mr. Keating. The chair thanks the ranking member.
    And I will now introduce our witnesses.
    Ambassador Daniel Fried is a distinguished fellow with the 
Future Europe Initiative and Eurasia Center at the Atlantic 
Council. He has previously served as the State Department 
coordinator for sanctions policy, assistant secretary of State 
for European and Eurasian Affairs, and the United States 
Ambassador to Poland.
    Thank you for your service, and thank you for being here, 
Ambassador.
    Ms. Jessikka Aro is a Finnish journalist, working for 
Finland's public service broadcaster Yle. She has received 
awards for investigative journalism on pro-Russian internet 
troll factories, having traveled to St. Petersburg to interview 
employees of the Internet Research Agency and the Russian 
journalists who first uncovered them.
    Thank you for making the trip here.
    Mr. Jakub Kalensky is a senior fellow with the Eurasia 
Center at the Atlantic Council. He formerly worked for the 
European Union's East StratCom Task Force and was the leader 
for countering disinformation.
    Thank you for being here.
    Dr. Fred Kagan is a resident scholar and director of the 
Critical Threats Project at the American Enterprise Institute. 
He is formerly a professor of military history at the U.S. 
Military Academy at West Point.
    Thank you.
    We all appreciate your being here and look forward to your 
testimony. Please limit your testimony to 5 minutes. And 
without objection, your prepared written statements will be 
made part of the record.
    As a reminder, all members will have 5 calendar days to 
submit materials and questions for the record.
    I will now go to Ambassador Fried for his statement.

STATEMENT OF DANIEL FRIED, DISTINGUISHED FELLOW, FUTURE EUROPE 
 INITIATIVE AND EURASIA CENTER, ATLANTIC COUNSEL (FORMER STATE 
 DEPARTMENT COORDINATOR FOR SANCTIONS POLICY, FORMER ASSISTANT 
   SECRETARY OF STATE FOR EUROPEAN AND EURASIAN AFFAIRS, AND 
           FORMER UNITED STATES AMBASSADOR TO POLAND)

    Mr. Fried. Chairman Keating, Ranking Member Kinzinger, 
members, I appreciate the opportunity to appear before you 
today. The topic is relevant and timely.
    I have to say it is an honor to be on this panel with 
Jessikka Aro and Jakub Kalensky, two fighters against 
disinformation, and a pleasure to be here with my old 
colleague, Fred Kagan.
    The Russians may be leaders in State-sponsored 
disinformation, but they are not going to be the last. The 
Democratic community, the free world, needs to face the 
challenge of Russian and other forms of contemporary 
disinformation while remaining true to our democratic values. 
As we learned during the cold war, we must not and need not 
become them in order to fight them.
    I want to focus on what is to be done. First, the 
Europeans, then the U.S.
    Europeans have moved since 2018 toward action to deal with 
disinformation. The EU approach includes strengthening the EU's 
capacity to identify and expose disinformation, and hopefully 
that includes strengthening support for East StratCom, where 
Jakub Kalensky used to work. They have established an EU Rapid 
Alert System to spread news of disinformation campaigns in real 
time.
    Most important, the EU has negotiated and concluded a Code 
of Practice on disinformation with U.S. social media companies 
setting out terms of behavior and standards. The code notes 
that if progress is not satisfactory, the EU could turn to 
regulation.
    The EU is also looking at improving social resilience 
against disinformation, creating a European network of 
independent fact checkers, launching an online platform on 
disinformation, and social media literacy.
    European governments, particularly France, Sweden, but 
others, perhaps in reaction to Russian hacking of the Macron 
campaign in 2017, have been active. The good news is that the 
EU and some European national governments have been addressing 
the disinformation challenge. The bad news is that EU 
implementation, even of its own plans, has been uneven. This is 
just beginning.
    The United States, though, and I am sorry to say this, lags 
the EU both in conceptual framing of the issue and actions to 
deal with it. This is not due to lack of awareness of the 
problem inside the administration, but leadership has been 
uneven.
    Nevertheless, there is work ongoing in the administration. 
The State Department's Global Engagement Center is funding 
research and helping civil society groups and independent media 
on the front lines of the threat. U.S. Cyber Command began 
operations ahead of our last congressional elections to deter 
Russian operations. USAID is supporting local media and civil 
society in the European countries most vulnerable to Russian 
disinformation. The Department of Treasury has imposed 
sanctions on Russian entities tied to disinformation. The 
Senate has introduced sanctions legislation, so-called DASKA, 
which actually has some useful provisions on countering 
disinformation.
    These are good steps, but they lack the scope of what the 
EU has already tried to launch. There is no U.S. equivalent to 
the EU Code of Practice. We need to have an all-of-government 
approach to the problem with the backing of the highest levels 
of the administration. The following might serve as an action 
plan for the U.S.
    The U.S. Government needs to get organized. Somebody and 
some agency needs to own the problem. Whether this is State, 
DHS, or a national counter-disinformation center with the 
backing of the President, somebody needs to answer the phone 
when you want to call about disinformation.
    Mr. Keating. Did you plan that?
    Mr. Fried. Yes, sir, I did.
    Mr. Keating. That was excellent.
    Mr. Fried. Yes.
    The U.S. needs to work with its friends, starting with the 
European Union. We could stand up a transatlantic or G-7 
counter-disinformation coalition to pool our knowledge, set 
common standards, and use our regulatory power to greatest 
impact.
    Social media companies have happily moved beyond initial 
denial, but they need to keep cleaning up their platforms and 
reassessing online anonymity.
    The administration and Congress should follow the 
principles of transparency and authenticity on social media, 
not heavy content control.
    Regulation, I think, is coming. It needs to be iterative, 
not heavy. We need to learn as we go. But I think that it is 
important not to be heavy content control, but to talk about 
inauthentic sites and enforce the principles of transparency.
    Last thought. Civil society groups in the United States and 
Europe are going to be the heroes of counter-disinformation 
techniques. They, not government bureaucracy, are going to be 
able to expose in real time Russian and other disinformation 
operations. We ought to put our trust in them. We ought to put 
some of our resources behind them, people like Jessikka Aro and 
Jakub Kalensky. But others, Stop Fake in the Ukraine, the 
Baltic elves, EU disinfo labs, the Atlantic Council's own DFR 
Lab, these are the people who can expose, and then when 
exposed, American society needs to wake up and pay attention to 
this.
    There is more to be said, but I will say it during the 
questions if there is time.
    [The prepared statement of Mr. Fried follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Keating. Thank you, Ambassador.
    Ms. Aro.

 STATEMENT OF JESSIKKA ARO, INVESTIGATIVE REPORTER, YLE KIOSKI

    Ms. Aro. Chairman Keating, Ranking Member Kinzinger, 
distinguished members of the committee, thank you so much. 
Thank you for having me here. It is such an honor to discuss 
the Russian trolls and how to counter them and prevent them 
from causing any more international damage in the future. I 
will tell you what I have found out in my investigations as 
well as give you recommendations how to prevent the damage in 
the future.
    Five years ago, I started to investigate the Kremlin tool 
of information psychological warfare, Russia's use of paid 
online propaganda workers. Thanks to the brave Russian 
journalists who had infiltrated the St. Petersburg-based troll 
factory already in 2013, we knew that a shady office paid 
people to build fake identities and profiles on social media.
    These trolls pretend online as real people and produce pro-
Putin and pro-Russian content on an industrial scale. According 
to leaked emails between the factory supervisors and employees, 
the trolls' mission was to shift the balance of online 
discussions by increasing comments supportive to Putin, thus 
manipulating real people online.
    Back then, in 2014, the Russian trolls in Finland attacked 
mostly opinion leaders, for example, our then defense minister. 
I wanted to investigate how the trolls influence and impact in 
the general audience, the ordinary internet users. Did they 
have any meaningful impact or influence on them, on Finnish 
real people's ideas, attitudes, and even behavior.
    I found several influence methods which are still actively 
in use by the trolls today. Facebook, Twitter, YouTube, every 
other social media comment sections of traditional media and 
Russian discussion forums were abused already back then to 
spread lies benefiting the Kremlin. The trolls smeared Western 
leaders as Nazis and fascists, blamed the U.S., NATO, and the 
European Union for the war in Ukraine, claimed Russian soldiers 
never stepped their foot on Ukrainian soil.
    The Russian Embassy in Helsinki supported these social 
media operations. In addition, anonymous operators formed 
groups on Facebook and conducted other psychological operations 
against civilians.
    The trolls, indeed, had impact on real Finnish people. Some 
Finnish who are interviewed told me that they had stopped 
discussing Russia-related issues online altogether just to 
avoid the death threats and name calling that would follow from 
the trolls after they did that. Thus, the digital operations 
had succeeded in both silencing and importing fear into Finnish 
public debate about Russia. That is a profound threat to 
people's freedom of speech coming from a hostile foreign power.
    But there was more. Some people had lost the idea of what 
is true and what is not. For example, in the case of Ukraine, 
disinformation had again succeeded in manipulating real 
people's thoughts. It is difficult to make decisions who to 
vote for or whether to view Russia as the aggressor in Ukraine 
or not after you are not sure what is factually even happening.
    Russia wants to brainwash useful idiots. My most disturbing 
finding, in my own opinion, was that some people who are 
subjected to propaganda believe it and spread it further in 
their own networks. I also learned that not everyone are 
influenced, but some people are and they need protection.
    Later, I started to investigate attacks on private Western 
individuals as I was myself made the target of Russian-
originating and still ongoing defamation campaign because of my 
work. For almost 5 years, I have been defamed in Russian fake 
new sites, in Finnish pro-Kremlin racist and hate speech fake 
news sites by the German RT, by the troll factory, and by 
countless social media activists and neo-Nazis.
    The retaliation campaign against me is partly criminal in 
nature. It has impacted even some of my friends and has led to 
some of the agitated people threatening to kill me. These are 
real Finnish individuals.
    I needed police escort to attend a trial against some of 
these perpetrators. Police said that I faced the threat of 
impulsive violence if I am in the wrong place at the wrong 
time. Why? Because Putin's administration's employee and other 
propagandists want to smear and silence me and scare and stop 
me from investigating and talking about the troll activity.
    And I am also somewhat worried to testify here today 
because I believe it will lead to retaliation against me just 
like so many other of my public appearances in the last years.
    Also, the same kinds of operations are ongoing against 
different European and even American people who voice out their 
criticism or information about Russia or Putin's regime. They 
become systematically smeared.
    And finally, I recommend the Western governments and 
international police organizations who, in my view, are in the 
core of countering this international disinformation campaign, 
they should be treated as what they are, international 
politically motivated organized crime conducted by intelligence 
officers and paid propagandists. These criminals, they do not 
want to take your money. They want to capture your thinking and 
control you.
    Targeted people are often civilians. They need help. More 
robust preventive measures from intelligence services are 
needed.
    Also, maybe it is time we start to call the Kremlin troll 
farms and digital disinformation for what they are, crime 
factories and digital crime. The word troll farm does not come 
close to describing the destruction of these operations.
    Countries should also check their legislations on libel, 
illegal threats, instigating violence, secrecy crimes, privacy 
breaches, espionage, and computer hacks as they seem to be the 
Kremlin's favorite online violations used in these operations. 
The punishments for these crimes are often not enough to 
prevent this organized crime.
    The Kremlin also knows that as long as Facebook, Twitter, 
and other social media giants are not properly regulated, they 
can abuse them as much as they can.
    And just my most important notion today is that the 
Kremlin's operations continue uninterrupted all the time 
between and during the elections. The trolls are given new 
themes every day, and they will continue unless they are 
stopped.
    Thank you.
    [The prepared statement of Ms. Aro follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Keating. Mr. Kalensky.

  STATEMENT OF JAKUB KALENSKY, SENIOR FELLOW, EURASIA CENTER, 
                        ATLANTIC COUNCIL

    Mr. Kalensky. Chairman Keating, Ranking Member Kinzinger, 
distinguished members of the subcommittee, thank you very much 
for the invitation to speak in front of you today. It is an 
honor. I will summarize my written testimony for the hearing.
    In 2014, NATO's military commander, Philip Breedlove, 
called the Kremlin's disinformation campaign targeting Ukraine 
the most amazing information warfare blitzkrieg we have ever 
seen in the history of information warfare.
    Five years later, it is obvious that the initial blitzkrieg 
has evolved into a sustained and ongoing disinformation 
campaign using thousands of channels and dozens of languages, 
targeting hundreds of millions of people on a daily basis. It 
is a campaign with the goal to undermine Western democracies, 
human rights, and rule of law, and to denigrate those who stand 
for these values, including the United States.
    The Kremlin's media are tasked to advance Russian military 
goals regardless of the current peace-war status with a given 
country. These pseudo-journalists are dutifully fulfilling 
those tasks, and they get rewarded by the Kremlin for the more 
visible Russian military operations like in Ukraine or in 
Syria. They perceive themselves as being in a permanent 
information war with the whole Western world.
    The messages of Russian State media get further amplified 
by an ecosystem consisting of so-called alternative media, 
social media, Russian officials and representatives, NGO's, and 
other less researched communication channels. Often, 
influencers in European States are repeating the messages of 
the Kremlin's disinformation ecosystem, giving their messages 
new legitimacy and spreading it among new audiences.
    Even in the Netherlands, the country that lost the most 
citizens in the tragedy of the MH 17 flight where nearly 300 
civilians were killed by a Russian weapon, even in the 
Netherlands you can find politicians repeating the Kremlin's 
lies about who is to blame.
    As some of the opinion polls show us, the synergy of 
Kremlin-controlled and Kremlin-influenced channels is 
effective. According to one poll, 80 percent of Bulgarians did 
not believe that it was Russian secret services who are to 
blame for the nerve agent attack in Salisbury, England. That is 
four out of five people believing a disinformation campaign 
instead of facts and evidence.
    After 5 years of sustained information aggression, it 
unfortunately seems that the European audiences are getting 
used to a certain level of disinformation campaign, almost 
perceiving it as the new normal. This fatigue facilities 
further disinformation campaigns, including those from new 
actors, both State and non-State.
    It is for these reasons why I worry that the Kremlin is 
currently winning the information war it is conducting against 
the Western democracies, mostly because we in the West do not 
understand that we are in such a war. We do not understand what 
it has already cost us and what will it cost us in the future. 
And we have failed to fight back and defend our values against 
this new kind of aggressor.
    It does not have to be this way. We in the West have all 
the knowledge and all the capabilities to win this fight. The 
only thing we lack is political will and the determination of 
our adversary.
    In my written testimony, I have described multiple measures 
that can be undertaken to defend against this kind of 
aggression. Out of all the examples, let me highlight here the 
case of Lithuania. This small nation shows us how the 
combination of documenting this threat, raising the level of 
awareness about it, mitigating the weaknesses of the 
information space, and punishing of the information aggressors 
can result in a successful defense even against an opponent who 
is many times stronger and has many times more resources. 
Lithuania has a track record of neutralizing a disinformation 
campaign even before it has time to spread and influence the 
audiences, which is the best possible result you can achieve.
    It is these four areas of defense which I perceive as 
necessary in order to successfully defend against the massive 
disinformation campaigns that the Kremlin conducts in the past 
years. What we see in many European countries and in the EU are 
the first three of these areas: documenting the threat, raising 
awareness, and mitigating the weaknesses.
    However, it is actually the fourth area, punishing the 
information aggressors, that might make the biggest difference. 
The other three areas will help us better cope with information 
aggression, but they will never help stop it.
    I am deeply convinced that unless we start punishing the 
information aggressors in a more resolute way, we will not only 
fail to stop their aggression, but we will also show to other 
potential aggressors that we in the West are not capable of 
dealing with this kind of threat, and we will invite further 
aggression.
    And there are other, more powerful actors in the world than 
Russia. If they start adopting the Kremlin's tactics, as we 
already see happening in a few cases, we might face a 
significantly bigger problem in the future.
    Thank you very much for your attention, and I will be 
looking forward to your questions.
    [The prepared statement of Mr. Kalensky follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Keating. Dr. Kagan.

 STATEMENT OF FREDERICK W. KAGAN, PH.D., RESIDENT SCHOLAR AND 
    DIRECTOR, CRITICAL THREATS PROJECT, AMERICAN ENTERPRISE 
                           INSTITUTE

    Mr. Kagan. Mr. Chairman, Ranking Member Kinzinger, thank 
you for the opportunity to appear before the subcommittee 
today. Thank you also for calling this hearing to address the 
challenges of Russian information operations against both the 
United States and Europe generally.
    It is vitally important to keep in mind, as the 
subcommittee clearly does, that Vladimir Putin is engaged in a 
general attack on the institutions of democracy and 
representative government throughout the West and, in fact, 
throughout the world.
    One of his aims is to destroy the trust and confidence of 
Western peoples in their governments and in the very 
institutions of representative government themselves. He 
pursues this aim, unfortunately, in an increasingly conducive 
environment, as Western people seem increasingly to be losing 
faith in critical institutions on their own. Addressing the 
Russian challenge will thus require that we also address that 
internal problem.
    Putin is not an opportunistic predator as he is often 
portrayed. He has a concrete program. He has articulated an end 
state. He has articulated an alternate vision of the world. He 
pursues those objectives through concrete and organized 
campaigns. They are very flexible, they are opportunistic, they 
take advantage when he can, but they are nevertheless clear.
    Russian military doctrine increasingly is making the 
argument that even tactical undertakings, even kinetic actions, 
should all be subordinated to the aim of shaping the 
information environment rather than achieving specific military 
ends, and that is important because I think that we need to see 
the activities that Putin is engaged in in the context of a 
political military campaign that he is pursuing globally, not 
just as crimes, although they clearly are crimes and also need 
to be punished in that way.
    The Soviet concept of reflexive control is central to this 
entire undertaking, and it is important to understand that 
concept. Basically, the idea of reflexive control is so to 
shape your adversary's perception of reality as to cause your 
adversary voluntarily, of his own will, to choose the course of 
action you prefer without even being aware that he has been 
manipulated into doing so.
    It is a kind of jiu-jitsu in information operations, which 
is not surprising considering that Putin himself is a fan of 
the Russian or Soviet version of Judo. Also, that he is a small 
person, which bears repeating as part of an information 
operation.
    One of the advantages that Putin's aims give him is that 
they are negative. What matters to Putin is less that we 
believe what he is saying and more that we do not believe what 
we are saying. And so Putin's objectives are achieved if people 
simply say to themselves and to each other: Well, who really 
knows? I mean, after all, did the Russians shoot down the 
airplane? I mean, who really knows?
    And of course, we do know. But getting people to positive 
belief is much harder than getting them simply to throw up 
their hands and say: Who knows? And we have to understand how 
important, how difficult that makes the challenge that we are 
facing here.
    But the approach that Putin is taking has vulnerabilities 
as well. It relies to a very heavy extent on a degree of 
stealth and anonymity and on the ability to persuade people 
that what they are hearing is not simply Russian propaganda but 
is coming from sources that they trust and so forth.
    And in addition to that, we have now seen on several 
occasions that Putin can pay a very significant price when 
covert operations are blown, and there are two major examples 
of that in, ironically, two of his biggest successes, Ukraine, 
where the sense of Ukrainian nationhood and nationalism and 
resistance to and separation from Russia in western Ukraine is 
higher than it has ever been. And I do not actually think that 
it will be undone regardless of what settlement is reached by 
this government in Kiev or any other. And that is a result of 
the reaction against what Putin did there.
    And even in our own election, the fact that we are having 
this hearing, the fact that we are here, is evidence of a Putin 
failure. It demonstrates the degree to which he has caused us 
to reflect on what he is doing.
    And that blowback phenomenon is something that we can take 
advantage of. But we are not, as my co-panelists have pointed 
out, equipped as a government or a people to take advantage of 
it yet, and we should focus on that.
    And so some of my concrete recommendations to you are to 
consider establishing cells in various places in the 
government, I do not really care who owns them, whose job it is 
to follow the Russian campaigns, to understand what Putin is 
trying to do generally, which will allow us to predict the 
kinds of information operations that he is likely to undertake, 
the kinds of cyber operations that he is likely to launch in 
support of them.
    And then those cells need to develop plans. When should we 
blow this operation? When should we make it public that the 
Russians are doing this? To what purpose? What will we try to 
accomplish? What are our plans for accomplishing that?
    And I would submit this needs to be a specialized cell 
because we must also restrict ourselves only to telling the 
truth. We must never get into the business of lying to 
ourselves, to the American people. We can do that, but it makes 
it harder. And so I think that this is something that 
organizationally and structurally would require a great deal of 
attention.
    And we also need to have cells that are prepared to take 
advantage when third parties blow Russian operations, because 
that will happen more frequently than us blowing them 
ourselves. We have heroic people like Ms. Aro, who will do this 
on their own, and others, and we need to be prepared to take 
advantage of that.
    And there are various other specific things that I think we 
could talk about as well, and I would be happy to address 
those.
    I simply want to end, though, by saying we also have to 
recognize the weaknesses in our own current political discourse 
that make us particularly vulnerable to what the Russians are 
doing. The incivility, the mistrust, the hate, the emotion that 
is spewed by both sides and within both parties at each other 
is undermining Americans' faith in themselves and what we stand 
for, in our institutions, and it is opening opportunities for 
Putin.
    I do not expect to get to some grand kumbaya moment where 
all of that stops, but to the extent that we can close that gap 
and restore civility to our discourse, we will make it much 
harder for Putin to attack us in this fashion.
    Thank you.
    [The prepared statement of Mr. Kagan follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Keating. Thank you, Doctor.
    I now give myself 5 minutes for questions.
    Ms. Aro, you mentioned in your testimony that you have 
been--well documented--you have been threatened in the past, 
harassed, defamed, and you mentioned even being here today 
could result in that. And I admire your courage, we all do, for 
continuing that effort and for the role of journalists to 
continue that effort.
    If you would like, could you take a few minutes and be more 
specific about the kind of things that were done to you. I 
think if you are worried about the future, one of the best 
things to do is a little sunshine and tell the kind of tactics 
that were used against you personally, and hopefully, this will 
deter them to do that in the future, if you could.
    Ms. Aro. Of course. Thank you so much for the encouraging 
words.
    So, for example, over 300 articles in a fake news site, 
pro-Kremlin, Finnish-language site called--excuse me, my 
language--WTF paper, somewhat popular far-right neo-Nazi, pro-
hate speech site. They have published around 300 articles in 
which they smear me as a paid NATO agent, paid America 
propagandist, brain damaged, drug user, that I am a threat to 
Finnish national security, that I work in cooperation with 
British and American troll armies. And they also post really 
nasty photos of my face, like manipulated horrible photos, and 
they even attack anyone who publicly supports me or even, you 
know, credits my work. They attack them as well. They smear 
them as well.
    They also have attacked the policemen who have investigated 
my case. They have attacked just, you know, anyone. They also 
cyber stalk me and my activities.
    In addition, for example, the police found in their 
investigations that someone, even my colleague within the 
Finnish Broadcasting Company, had been keeping an eye on me 
inside my workplace and then passed on that information about 
my job assignments as well as my job, you know, activities and 
my location to the main suspected stalker, who works for 
Putin's think tank in Moscow and who has been in charge of 
these operations.
    And, yes, so because also these operations have been 
international, I have also received death threats and shooting 
phone calls from Russian-speaking countries, because there are 
Russian smear articles against me. And, for example, I have 
been forced to leave Finland some years back just to, you know, 
try and make my investigative book about Russian trolls in 
peace.
    Mr. Keating. Actually you had to leave your home?
    Ms. Aro. Sorry?
    Mr. Keating. You had to leave your home?
    Ms. Aro. Yes.
    Mr. Keating. That is amazing. Have the authorities done 
much to help you in that regard? What is available? What was 
available to you to help you?
    Ms. Aro. Yes, they have definitely investigated my crime 
complaints very carefully and I believe they still continue to 
do so. But of course these court processes take time, and the 
trolls and propagandists and security services who run these 
operations, they take advantage of our longish justice system.
    Mr. Keating. Thank you for sharing that. I know it was not 
easy.
    Just quickly, Ambassador Fried and Dr. Kagan mentioned this 
in particular, and in a different way Mr. Kalensky did too. 
Reflecting on the U.S. situation, what I heard from your 
testimony was we are not as organized or centralized as we 
should be, that we are lacking in political will to deal with 
this, and there is further need of punishing or some kind of a 
response to this. Pretty disturbing reflections.
    We are out of time, almost. Can you just quickly, what 
could we do to improve this in our own country?
    Ambassador.
    Mr. Fried. The signals from the top of the U.S. 
administration should not be ambiguous.
    Mr. Keating. Let me be clear. When you say top of the 
administration----
    Mr. Fried. The President.
    Mr. Keating. The President.
    Mr. Fried. Ambiguity is not helpful. There are a lot of 
people in the administration, political appointees and career 
people, who understand the problem and want to do the right 
thing. But in an atmosphere of, let us say, mixed signals, 
there is a natural disincentive for somebody to stand up and 
try to own the problem, to try to push forward difficult 
solutions.
    And regulatory solutions are going to be difficult. We are 
going to be bumping up against issues of free speech. And you 
need a collaborative, cooperative base from which to tackle 
them.
    It is possible. This is not an impossible problem to 
manage. It is impossible if your standard for solving it is 100 
percent. But that need not be our standard. This is doable, but 
we have to go out and start doing it.
    Mr. Keating. I have gone over my time. I am sure some of 
the other witnesses will reflect that with the other questions 
of the members of the committee.
    I now recognize the ranking member for 5 minutes, Mr. 
Kinzinger.
    Mr. Kinzinger. Thank you, Mr. Chairman.
    And, again, thank you all for being here.
    Ms. Aro, I just want to say that you are heroic in what you 
are doing. And I know that it is difficult, I know that it is 
not fun, and I know that the easiest thing to do would be to 
walk away and just say you did your peace. But I appreciate you 
being here and continuing to stand strong in the face of a 
really tiny man, as Dr. Kagan pointed out.
    Mr. Ambassador, you are correct, too, in talking about 
ambiguity. I think the reality is Russia tried to interfere in 
the 2016 election. We can have debates about, you know, what 
the result was of that, we may disagree on that, but there was 
no doubt there was interference.
    And it is going to happen to both parties eventually. It is 
all about creating instability. It is all about creating doubt. 
And it is something that we have to be very clear about, 
because lack of clarity leads to Dr. Kagan's point about, well, 
who knows what is true? And then if you are, ``Who knows what 
is true?'' you are, like, ``I will just watch, you know, 
whatever is on TV and not care,'' and still get fed this 
disinformation.
    So thank you all for your testimoneys.
    Dr. Kagan, I want to ask you about disinformation and any 
advantages or disadvantages we have.
    When we do Radio Free Europe, for instance, or Radio Free 
America, we tell the truth on that, and sometimes that truth is 
not pretty to our own system of governance. And telling the 
truth, I think, is the right thing.
    But that can be a disadvantage when Vladimir Putin puts out 
disinformation. So, yes, it is true that Vladimir Putin is tiny 
in stature, for instance, right, that is something important to 
know, that he is stealing money from his people, getting that 
information out there.
    But it is not true that Bashar al-Assad defends Christians 
and is the hero of Christian civilization, and Vladimir Putin 
is a defender of Christianity against radical Muslims, as we 
hear. He is just a violent man that wants power.
    So when it comes to us countering with our own information, 
what are disadvantages and advantages we have, and how do we do 
that better? Because again, if you put a disinformation 
campaign against a true information campaign, the 
disinformation is going to be more powerful. But we do not want 
to get in the lying game, either. So how do we do that?
    Mr. Kagan. Well, Congressman, I think you put your finger 
on a big part of the advantage that we have, which is actually 
the truth favors us. He has to tell lies in order to make 
anything look good for himself.
    He has an economy the size of Australia's, and it is not 
even a real economy. It is a kleptocracy, which is 
dysfunctional and which harms the Russian people. The Russian 
standard of living is dropping. Russian health is dropping. The 
demography is terrible. Russia is in a terrible, disastrous 
situation. That truth is an advantage for us.
    We, on the other hand, are a vibrant, thriving society with 
the largest economy in the world and great freedoms and the 
ability to have a lot of civil discord. That is a tremendous 
advantage for us.
    I think it comes down to how we tell our own story, and I 
think that we have been so focused on ripping each other apart 
that the message that we are sending to the world is that we 
are awful and that no one should copy us, no one should want to 
join us, no one should want to work with us. And I do not 
attribute that to any individual in government. I think it is 
across the board, the nature of our argumentation.
    So I think our advantage is the story that we actually have 
to tell. The disadvantage is the nature of our discourse buries 
that story.
    Mr. Kinzinger. Yes. Thank you for bringing that up.
    I mean, I look at we have not done a good job of selling 
our side. We assumed we won the cold war and that was it was 
100 agreed that this was the best way of life. We can put up a 
$40 trillion economy between the United States and Europe 
versus 1.6 or 1.7 trillion dollar economy of Russia. But that 
does not sell it because Vladimir Putin uses ethnic tensions 
now, and ethnic tensions actually are more compelling than 
saying you get a new iPhone or you get a little bit more money.
    The reality is this is the best time to be alive. I mean, 
you have any information you want here. We are comfortable. The 
United States of America, at least, and most of Europe does not 
worry about an attack on a daily basis besides maybe a cyber 
attack. But yet we are more miserable than I think we have ever 
been in our life.
    And I think getting our heads around what we have and what 
we are and projecting that is how we won the cold war. It was 
not necessarily a military buildup. It was an idea war. That is 
how we are going to defeat radical terrorism, by giving an idea 
war to show what possibility lays out there.
    Ms. Aro, do you have anything to add to that? I only have 
20 seconds left, but I want to give you a chance to add to the 
information side of that.
    You are good. I like that.
    All right. Well, with that, Mr. Chairman, I will yield 
back.
    Mr. Keating. Thank you.
    The chair recognizes the gentlewoman from Pennsylvania, Ms. 
Wild.
    Ms. Wild. Thank you very much, Mr. Chair.
    Ambassador, I would like to direct my first question to 
you, and that is relative to the disinformation campaign that 
we know that took place here in the United States in 2016. And 
of course, we are coming up on a very important election again 
next year.
    In your view, what kind of Russian influence operations are 
currently operating in the United States?
    Mr. Fried. I think the Russian disinformation tactics are 
beginning to shift from ads and bots over to manipulated 
organic content and maybe in the direction of deepfake, 
artificial intelligence.
    And I mean by that that instead of making up stuff and 
posting it under an impersonation account, they are going to 
take genuine U.S. posts, blogs, tweets from radical groups, 
right, left, does not matter, and they are going to amplify 
them, and then use their sophisticated trolls to slip into that 
radicalized conversation and try to play both sides of an 
issue, the better to stimulate social tensions.
    Now, we do not have to search far. The Soviets used to do 
that, but they did it analog. It took weeks. Now it is done in 
minutes.
    But I think we are going toward manipulation of organic 
content rather than wholesale fabrication and then use of 
artificial intelligence, spreading around deepfakes. I think 
that is the cutting issue more than bots and ads.
    Ms. Wild. And do you have any sense of how the U.S. 
Government should work to guard against that kind of 
interference?
    Mr. Fried. Several levels.
    First, working to expose it. Sunlight is the great 
disinfectant. One of the great success stories of counter-
disinformation was the French elections where European and 
American civil society groups exposed what the Russians were up 
to, and then the story became in France not what was stolen, 
not the stolen files and disseminated nasty information about 
the Macron campaign, but the fact of the Russian campaign. That 
was a successful example of turning back disinformation.
    So expose it, and then start working with social media 
companies so they stop acting as purveyors, unwitting purveyors 
of Russian intelligence operations. They are past denial of the 
problem; I will give them that. I think they want to be part of 
the solution, but they are going to need various forms of 
persuasion.
    And I was skeptical about regulation when I started looking 
at this issue before, but I think it is coming, and I think it 
probably should. I think that we and the Europeans ought to be 
working together to develop common standards. The democratic 
world, the free world needs to develop a common approach to 
this, and I think it can be done.
    Ms. Wild. And do you believe that the deterioration of our 
relationship with our allies adversely affects that kind of 
cooperation?
    Mr. Fried. It makes it a lot harder. Why on earth are we 
spending our political capital making theoretical fights 
against the European Union which was our idea in the first 
place? That is--pardon me--but that is nuts.
    They are our closest democratic partner. We together, we 
and the Europeans, form the core of the free world. Sure, the 
EU can be difficult to deal with. Well, so can the American 
government. That is irrelevant.
    We have a similar set of assumptions. We have a similar 
problem. The Finns, the Balts, the Poles, the Ukrainians, they 
have been telling us about this for years. Now we are in a 
position to listen. We ought to be working, making common cause 
with the Europeans.
    And the solution set of issues is not going to be that hard 
to find. There are problems in this world that are genuinely 
somewhere between difficult and impossible. This is not one of 
them. This is fixable.
    Ms. Wild. Ms. Aro, did you want to add something to that?
    Ms. Aro. Yes, please, about the kinds and types of 
disinformation campaigns targeted to the United States.
    There was last year a really interesting university 
research in which the researchers found that the Russian troll 
accounts on Twitter, which had previously been pushing pro-
Russian and pro-Trump messages, they have started to push anti-
vaccination messages to America, and you can just imagine the 
outcome of that.
    Ms. Wild. Yes. Thank you so much.
    I am out of time. I yield back.
    Mr. Keating. Thank you.
    The chair recognizes the gentlewoman from Missouri, the 
home of the Stanley Cup champions, and it pains me to say that, 
Mrs. Wagner.
    Mrs. Wagner. I thank the chairman. And you know I did not 
bring up the fact that my St. Louis Blues are, in fact, the NHL 
Cup winners, but over a certain Bruins team of Massachusetts. 
But very kind of you to acknowledge it, Mr. Chairman, very 
kind. And I thank you for organizing this hearing.
    And I thank you to our witnesses.
    Russia's capabilities in the information space cannot be 
underestimated. Russian disinformation activities run counter 
to our U.S. values and our interests, and we must prioritize 
efforts to counter Russian information warfare in coordination 
with our transatlantic partners.
    Mr. Kalensky, you mentioned Russia's attempts to, you said, 
launder information in order to obscure its source. What can 
the intelligence communities in the United States and Europe do 
to improve attribution, so to speak?
    Mr. Kalensky. I think for that, it is actually very useful 
if you have the first part of the four solutions I offered, and 
that is actually documenting the threat, because then you can 
always highlight that it was the Russian information space 
where the disinformation appeared.
    I come from a country where we have quite a pro-Kremlin 
President, and when the attack in Salisbury happened, the 
Russians tried to spread multiple versions, often 
contradicting, about the story. You could see after the murder 
of Boris Nemtsov, after shooting down MH 17, and it was the 
same after Salisbury, you try to spread contradicting versions 
of events because the aim is not to persuade about one version, 
but precisely so, as Dr. Kagan said, so that you end up like 
say: I do not know where the truth is.
    And one of the versions was that it was not only Russia who 
was the producer of novichok, the poison that was used there, 
but it was also Czech Republic. The Czech President was one of 
the first people to repeat that piece of disinformation. 
Suddenly you would see the Russian disinformation machine not 
saying it was us inventing the lie in the first place, but it 
was, as even the Czech President admitted, the Czechs produced 
novichok. The information was laundered.
    You have to monitor the information space very accurately 
so that you can say that actually, no, it was the Russians who 
came with the lie in the first place, we know it, and whoever 
parrots it is just multiplying Russian lie and is playing a 
useful idiot for the Russian disinformation machine.
    I think that is why we also need to be a bit more resolute 
in punishing the information aggressors. We have to call them 
out. We have to call out when someone acts as a useful idiot of 
Russian disinformation campaign and parrots its lies.
    Mrs. Wagner. Absolutely.
    Dr. Kagan, I agree that the United States needs to develop 
new structures and strategies to identify, expose, and disrupt 
these hybrid operations. This must include coordination with 
our NATO allies. How should the U.S. approach the development 
of a coherent, NATO-based response to hybrid threats?
    Mr. Kagan. Thank you, ma'am.
    It is important for us to do as much of this work as 
possible at the unclassified level and probably not in the 
intelligence community.
    Mrs. Wagner. Again, the sunlight, the transparency, needs 
to be seen by all.
    Mr. Kagan. Exactly. And as soon as you do it in the IC, 
then it is classified, and so forth.
    Mrs. Wagner. Right. Interesting.
    Mr. Kagan. In addition to that, if you are not aware of 
them, if you look into the restrictions on the IC's ability 
even to monitor publicly available information, a lot of people 
would be surprised at how hard it is for the IC to do that.
    So I think that this is something where governments need to 
facilitate interaction of civil society organizations. The 
computer algorithms to catch deepfakes are not going to be 
written by the government. They are being written by private 
industry, by individuals. The ability to track stories from one 
place to another, that is out there. It is a matter of 
encouraging the mobilization of civil society.
    And then what the government needs to do is to be--and the 
governments need to do--is to coordinate on our responses to 
these things. So what are we going to try to accomplish?
    We know that we have got the Russians cold on this, for 
example. Just pick any example you like. What are we going to 
do with that information to maximize the damage to the entire 
Russian disinformation campaign and to demonstrate to our own 
people that there is truth out there, that we can know what it 
is, and to defeat the ``who knows'' principle?
    Mrs. Wagner. Thank you. The IC part of this I think is 
very, very important.
    Ms. Aro, in my very limited time, what lessons should 
Western governments draw from Finland's programs to improve 
media literacy and public awareness regarding disinformation 
and influence operation, ma'am?
    Ms. Aro. Well, first and foremost, of course, everyone 
needs to make university education free for everyone as we have 
in Finland, but when that is not possible, then what was 
mentioned already before, the program of the Finnish 
Government, of training government officials to recognize and 
counter disinformation operations already at the very early 
stage, and 2014 has been a good example.
    Also, journalistic community has started to train school 
kids on their free time. They just visit schools and tell what 
is facts and what is fiction and how you separate the two.
    Mrs. Wagner. You have got to find the truth. Yes. 
Absolutely. Well, thank you, and thank you for your courage.
    Thank you all for being here today.
    I have gone past my time. I yield back to the chair. Thank 
you.
    Mr. Keating. Thank you.
    The chair recognizes the vice chair of the committee, the 
gentlewoman from Virginia, Ms. Spanberger.
    Ms. Spanberger. Thank you very much for being here today.
    My colleague Mrs. Wagner's comments raised for me this idea 
of recognizing what the real threat is. And so before I ask my 
question, Mr. Kalensky, from your testimony, you outline that 
researchers and journalists have identified pro-Kremlin 
disinformation campaigns have occurred in the following 
elections: Scottish independence referendum, Ukrainian 
elections, Bulgarian local elections in 2015, Dutch 
referendums, Brexit referendum, Austrian Presidential 
elections, Italian constitutional referendum, French elections 
in 2017, German elections in 2017, Catalan referendum, Czech 
Presidential elections, Italian parliamentary elections, 
Macedonian name referendum, Ukrainian Presidential elections, 
Slovakian Presidential elections, European Parliament 
elections. And you note that this list is likely not 
exhaustive.
    I list through those because I think it is so vitally 
important that while we are focused on what has happened in the 
United States or some of the larger known efforts by the 
Russian Government to meddle in election and democracies, 
looking at that exhaustive list is incredibly important.
    But I would like to ask a question focused on the European 
response and specifically the European Union's Rapid Alert 
System. It was developed this year to facilitate communication 
among members relating to disinformation campaigns in their 
countries in order to coordinate their responses. The RAS is 
based on open source information and will also draw upon 
insights from academia, fact checkers, online platforms, and 
international partners.
    However, there are reports that have surfaced, including a 
recent article in The New York Times, that some countries are 
choosing not to participate and a number of potentially high 
profile alerts of Russia disinformation were not shared with 
the public or relevant organizations because of internal 
disagreement over the significance of this detected 
disinformation.
    In your opinion, what tools does the European Union's Rapid 
Alert System utilize to combat disinformation, and what is your 
assessment of the effectiveness of these mechanisms?
    Mr. Kalensky. I am a bit worried that the Rapid Alert 
System looks a bit better on paper than in reality.
    The European Union will always obviously praise the system 
in its public documents. It is the job of the communication 
experts there. But from my private conversations with 
government officials from various member State governments, I 
am a bit afraid that the system is not as effective as it 
probably should be. Most of the information there is actually 
from publicly available East StratCom documents and that the 
member States themselves are actually not putting in too much 
information.
    So if we have a Rapid Alert System that does not produce 
any alerts, I am not sure whether it is really a rapid alert 
system.
    I think what would really help would be if the system was 
made public, because then the journalists and the researchers 
and everybody could see what is being reported there and what 
is not being reported there. And I could ask my, you know, 
Czech authorities: How come you have not reported this case of 
Russian disinformation that even I know about?
    If there is not this public pressure, and the system is 
nontransparent, I am a bit afraid that we can read basically 
anything in the public documents, but we have no way to check 
it.
    And it is a bit of a paradox that part of the EU's anti-
disinformation efforts is pushing the platforms to being more 
transparent, and yet this system for rapid alert is actually 
nontransparent and nonpublic.
    Ms. Spanberger. And in an effort to provide greater 
transparency, what would be some of the actual changes to the 
system that you all would recommend if we were looking at a 
system like that, how it could be effective, or how it could be 
made more effective?
    Mr. Kalensky. I think we could learn from the best examples 
we have in Europe, and again, I will come back to Lithuania, 
the Lithuanian armed forces. STRATCOM has trained most of the 
important stakeholders in the country, be it civil servants, 
government officials, but even local authorities.
    So, for example, when the Lisa case, I referred to in the 
written testimony, when it appeared it was the mayor of a small 
town alerting the armed forces STRATCOM that something like 
this has happened. So we have to get to a phase where even a 
mayor of a small-sized city somewhere, you know, in Alabama or 
Missouri will be aware of what Russian disinformation is, what 
topics it exploits, what it tries to achieve.
    So for that, the No. 2 solution I offered, raising the 
awareness about the threat, I think you can achieve that. If we 
would be able to see what is reported in the alert system, A, 
we would be alerted, which would be nice, and B, we would know 
what the authorities actually--I mean, where is the failure in 
their monitoring, what they do not see, and where we, for 
example, the civil society, what we can help them with.
    Because, as Dr. Kagan mentioned, sometimes exhaustive 
monitoring tasks are not extremely easy sometimes. The civil 
society might be even quicker than the government because, yes, 
the civil society is younger people, more tech savvy, and they 
might fulfill this task better than the government.
    Ms. Spanberger. And it is an interesting process where you 
create a circumstance where you are expecting people to be 
aware of it if they have the ability to report or they are 
looped into what the reports are.
    Thank you all for your time today. I yield back.
    Mr. Keating. The chair recognizes the gentleman from 
Tennessee, Mr. Burchett.
    Mr. Burchett. Thank you, Mr. Chairman, Ranking Member, and 
thank you all for being here.
    I am interested to hear your all's take on how the EU and 
NATO can respond to these disinformation campaigns, and 
specifically what the abilities they have to push back are. 
Just all of you all. Remember, I have got 5 minutes. I know you 
all like to talk. If you all can kind just make sure everybody 
gets to answer because I have another question to followup 
with.
    Mr. Fried. NATO has set up a Center of Excellence to 
counter disinformation in Riga, and there is a NATO-EU hybrid 
center set up in Helsinki. So there is some institutional 
capacity already existing.
    These centers can do two things. They can identify Russian 
disinformation operations and spread the word, hopefully more 
effectively than the EU system, but they may get up--I am 
hopeful that the EU system gets up to speed.
    Second, they can start targeting Russian bad actors. And 
when I know who the bad actors are, there are various ways we 
can go after them, including, by the way, through sanctions. So 
there is the beginning of an institutional capability.
    But if I had one wish, you know, a magic wand loaded with 
one wish, it would be transparency and the ability to expose in 
real time Russian disinformation ops.
    Mr. Kalensky. What you can see in the EU and in NATO, it is 
definitely some of the documenting of the threat and some 
raising the awareness about the threat. You could see it there.
    I would like to see more of punishing of the information 
aggressors. I think we should sanction more of the Russian so-
called journalists because they are not journalists, they are 
just part of the Russian Army. And I find it horrific that you 
have a person called Vladimir Solovyov, he has a show two or 
three evenings per week. He uses it to spread hatred against 
the West in general or against its countries in particular.
    Mr. Burchett. Is he on CNN?
    Mr. Kalensky. Unfortunately, no.
    Mr. Burchett. OK. I was just throwing that out.
    Mr. Kalensky. And after the show, he sits on the plane and 
he enjoys his villas at Lago di Como.
    I do not think we should allow those who are trying to----
    Mr. Burchett. Say that last sentence again. You lost me. I 
am from east Tennessee. You are going to have to slow it down.
    Mr. Kalensky. Lago di Como. That is an Italian lake, a 
very, very nice resort, a very nice touristic area.
    We should also sanction the companies. When you have a look 
at the list of advertisers on Russian State TV, you would see a 
lot of Western companies even in the highest positions. This 
quote ascribed to Vladimir Lenin said: Capitalists will sell us 
the rope with which we will hang them.
    This is precisely what the Western companies are currently 
doing, those Western companies that are buying advertisement 
time on Russian TV. They are actually paying for destroying the 
West.
    Mr. Burchett. OK. One other question.
    Ma'am, maybe you would--tell me how you say your last name.
    Ms. Aro. Aro.
    Mr. Burchett. Aro? All right. You say it a lot better than 
I do.
    In your view, what are the most vulnerable European States 
to Russian disinformation campaigns? And what do you project to 
be the next electoral target?
    Ms. Aro. Well, I would say Balkans, which were already 
mentioned here, because many of these countries are--for 
example, Serbia is very fully engaged with different types of 
Russian projects. For example, they do military operations. And 
the Russian disinformation really much wants to tie them even 
more tightly together with Russian Federation.
    So they also have a lot of pro-Russian propaganda media, 
which other so-called traditional, normal, neutral journalists 
also follow and called for stories.
    So I would be really careful in addressing those regions, 
just like mentioned here before.
    Mr. Burchett. Yes, sir?
    Mr. Kalensky. In 2016, there was an article in Frankfurter 
Allgemeine Zeitung in Germany, and the author said they got 
hold of a document that the Bundesnachrichtendienst, the 
domestic secret service, acquired, a document created for the 
Kremlin, ranking the European member States, European Union 
member States, according to their vulnerability to Russian 
propaganda. And the first three were countries on this list 
were Austria, Hungary, and Czech Republic.
    So that is for the most vulnerable countries. At the end of 
this list were the Nordic countries.
    Mr. Burchett. I am out of time. But if you all ever hear 
about them messing in the Second congressional District in 
Tennessee, I would sure like to know.
    Thank you all very much you.
    Mr. Chairman, I yield back to you, Brother. Thank you 
again.
    Mr. Keating. Well, thank you.
    The chair recognizes the gentlewoman from Nevada, Ms. 
Titus.
    Ms. Titus. Well, thank you, Mr. Chairman.
    Thank all of you for being here.
    In addition to this committee, I serve on the House 
Democracy Partnership where we partner with legislatures in 
other countries with budding democracies, and a lot of those 
are in pretty hostile neighborhoods.
    Just this morning, we had a panel talking about some of the 
threats that authoritarianism is kind of posing for new 
democracies. Three of the countries there were Georgia, 
Ukraine, and North Macedonia. So you know they have been 
dealing with this for a long time.
    You have talked about some of the successes that we have 
seen Russia have. I would like to talk about some of the 
failures and see what we can learn from there.
    They tried messing in the election in Greece and in 
Macedonia over the name change to try to prevent Macedonia from 
moving forward with the NATO accession. They failed there. They 
failed perhaps in the French election last time around.
    What can we learn from where they failed? And is it 
legislative? Is it policy? Is it a difference in the media 
structure? And if it is the latter, what can we do maybe to try 
to change things here?
    Anybody? Everybody?
    Mr. Fried. The common element of the successes you cited 
was exposure of Russian disinformation campaigns in real time, 
and then the national media understanding the importance of 
talking about that, rather than the message the Russians were 
trying to push.
    This was successfully used in France, Greece. I think that 
the Germans turned back some disinformation operations that the 
Russians tried, trying to stir up anti-immigrant sentiment. 
That is the first piece, expose it and disseminate the 
exposure.
    The second piece is longer term. It is to get societies to 
be more sophisticated about what they read. And that takes 
time, though, that is a generation. And we need to act in the 
here and now.
    Ms. Titus. And how can we possibly do that when people do 
not read anymore? Students do not read. They do not write. 
Everything comes out in 40 characters. Is this just a challenge 
to our whole educational system?
    Mr. Kagan. I think the issue is it does not matter whether 
we are teaching them how to read or not. It is a question of 
teaching people how to process information that they are 
receiving. It does not--the medium does not matter. And, in 
fact, in many respects, I am less worried--like many others--I 
am less worried about what they are doing in the text space 
than I am about deepfakes and various other things, because it 
is well documented that images are much more powerful.
    And talking someone around from a text story that they have 
read is a lot easier than getting an image--something that is 
taken in by an image, even if it is known to be fake.
    And so there is a larger issue here that really has nothing 
to do with the deplorable fact, and I agree with you, that 
people do not read anymore, but that really comes to how do we 
process and receive information that is presented to us in any 
form.
    Mr. Fried. I agree with that. And I would add that, 
therefore, the social media companies need to act--they need to 
up their game and not be used as the conveyer belts for what I 
think will be the future in disinformation ops, which is lurid, 
provocative, completely phony visual posts, videos of speeches 
that look like Donald Trump or Elizabeth Warren but are not, 
that are completely fabricated.
    Ms. Titus. Or slowing down Speaker Pelosi's words?
    Mr. Fried. That was not an even good example. A good 
example is going to be something that looks exactly like a 
candidate, sounds like them, sounds like the kind of thing they 
could say, but is 100 percent fabricated. That could be 
disseminated within minutes, and social media companies that--
the regulatory framework that I am thinking about would require 
social media companies to have a check, especially when they 
discover that there is a foreign connection, which often is 
going to be technically feasible.
    Now, I do not want to drive it into the weeds. But you are 
asking exactly the right question.
    Ms. Titus. Thank you.
    Ms. Aro.
    Ms. Aro. I would like to contribute to listing the failures 
of the Kremlin. The Russian agents who operated here really 
widely in 2016, without any foreign agent registration in 
place, and tried to repel the Global Magnitsky Act, as well as 
smear Bill Browder, the human rights promoter and businessman, 
but they failed and basically ended up in the Mueller and other 
types of investigations. So that was one epic fail.
    Ms. Titus. Thank you.
    Thank you, Mr. Chairman.
    Mr. Keating. Thank you.
    I know that Ambassador Fried might be leaving in a few 
minutes. So when you do, we will take no offense. Hold in there 
until you can.
    And the chair recognizes the gentleman from South Carolina, 
Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman. And thank you for this 
hearing on Russian disinformation.
    I and my sons, daughter-in-laws, and grandchildren, have 
visited Russia a number of times. It is so impressive, the 
people, the beautiful countryside, the architecture, the 
literature, the art. That is why it is so sad, that Putin's 
abuse of such talented people, with a corrupt elite, is so sad.
    My first visit was actually to Moscow in 1990. It was the 
last year of the Soviet empire. And it was really inspiring to 
see the empire disappear, to be replaced by hopefully a more 
modern society, but that did not necessarily occur.
    And then I had the opportunity, with the National Endowment 
for Democracy, to lecture to different youth groups across 
Siberia. And it was incredible to appear as we, on an 
expressway, came to Novosibirsk, and there was a sign in 
English welcoming everyone to the Chicago of Siberia.
    And then I had the opportunity to lead a delegation to St. 
Petersburg to place a wreath at the cemetery, on behalf of the 
American people, to show our love and affection for the 
hundreds of thousands of people in the mass grave who had been 
murdered by the Nazi siege.
    And so, again, see what an extraordinary city, St. 
Petersburg. And then I was grateful to participate with Mayor 
Bob Coble of Columbia, South Carolina, to visit Chelyabinsk, 
Russia, which is the sister city of Columbia, South Carolina.
    And so you would not anticipate all of this, but the reason 
I review these associations is because my view is that the 
American people are not anti-Russian, but they certainly hope 
the best for the citizens of Russia for a positive change.
    With all of this in mind, Dr. Kagan, Ambassador Fried, in 
your view, what are the most vulnerable European States to 
Russian disinformation?
    Mr. Fried. Ukraine used to be, but in a possible other epic 
Russian failure, Ukrainian patriotism has crystallized in a 
pro-Western, pro-American direction, which otherwise might not 
have been possible. Nevertheless, they are vulnerable because 
they are under attack.
    I think Hungary, Czech Republic are vulnerable for the 
reasons that Mr. Kalensky mentioned. I think Poland less so. I 
think Serbia is still vulnerable to Russian disinformation 
operations. The legacy of the NATO operations and break-up of 
Yugoslavia weighs heavily.
    But we have also found that countries you would not expect 
to be vulnerable to Russian disinformation ops have had them in 
their countries. Spain, around the Catalonia referendum; the 
U.K. as it turns out, with Brexit. And we do not know where the 
Russians are going to pop up. But the countries I mentioned 
come to mind.
    Mr. Wilson. Dr. Kagan.
    Mr. Kagan. I agree with the list of vulnerabilities. I 
would like to put a couple of other countries on the list. The 
issue is a little less how vulnerable they might be than how 
desirable a target they are to the Russians.
    We have not spoken about Moldova, but Moldova is in the 
midst of a major political crisis at the moment, and where it 
ultimately lands on the pro-Russia or pro-West trajectory is 
very much up in the air. The Russians are playing massively in 
that space. Virtually no one in the West is paying any 
attention at all. And it matters a lot for all sorts of 
reasons, including there is still a Russian military presence 
in Moldova held over from the Soviet days.
    Latvia is very concerning to me, not because I think that 
the Latvians themselves are vulnerable, but the Russian 
minority in Latvia is vulnerable to manipulation. And as part 
of a hybrid war approach, that could be an immediate problem, 
huge problem for NATO. I am very concerned about Latvia in 
particular among the Baltic States, although they are all at 
risk.
    Even Belarus. We do not really imagine Belarus as ever 
being in play, because it is so much in the Russian orbit. But 
there is a gambit that Putin seems to be engaged in to try to 
warp Belarus so fully back into the Russian orbit that it 
basically recreates a single State of the two entities.
    And the Russia team at the Institute for the Study of War 
has actually hypothesized that that is potentially one way in 
which he could imagine dealing with a constitutional problem he 
has as his term ends, ostensibly without ability to run again, 
he could theoretically make himself President of this new 
organization. And there is a weird degree of small, little 
pushback in Belarus against this, which might be worth paying 
attention to.
    And in two countries, which in principle are not hugely 
vulnerable, but I think will be massive targets, are Germany, 
because the question of who succeeds Angela Merkel will 
determine the fate of Europe, if you want to really be 
hyperbolic about it. But it is not all that hyperbolic; it 
really matters a lot. And so I see that Putin will for sure be 
all over that.
    And the U.K. The opportunities to continue to sow discord 
and advance nationalist agendas, look at the Irish question, 
various other things, there are a lot of opportunities there 
that I think Putin will be aggressive about taking advantage 
of.
    Mr. Wilson. Thank you very much. And we appreciate you and 
your wife.
    Thank you very much.
    Mr. Keating. The chair recognizes the ranking member for 
any closing statement you might have.
    Mr. Kinzinger. I have no closing statement except to thank 
again the witnesses for being here and all your great work. And 
hopefully we can all together, you know, do something of action 
instead of just talking.
    So thank you very much for being here.
    Mr. Keating. I also want to thank you. It was tremendous 
testimony, important testimony, not only for our allies in 
Europe, but for lessons learned that we should take home here.
    We certainly learned that from the top down, from the 
President, as Ambassador Fried said, we need clarity, focus, no 
ambiguity whatsoever. We are under attack. Our intelligence 
community has been clear. Experience in Europe has taught us 
that.
    We have to organize better in this country. There has been 
testimony about how to centralize this effort into one agency. 
We are fragmented, frankly. Whether it is Homeland Security, 
whether it is our intelligence groups and agencies, there 
should be, I believe--and I think it was great testimony--a 
greater central focus on this.
    And we need a strong political will as well. And that 
means, to the extent that we can, less infighting among our 
parties and among different views within our own parties.
    I think it is important and it has been emphasized how 
difficult but important social media is from the private side 
to engage in this, as well as a free and vibrant press, free 
from intimidation and threats. And making sure they are backed 
up in that regard.
    In the absence of all of this, I agree with Ambassador 
Fried, and some of you, there could be results in more 
sanctions, to put teeth into our actions, and reluctantly in 
the difficult task of regulation.
    So these are all things that we have to consider.
    In this closing statement, I have recognized one more 
member who has come. And, if we could, we will recognize Mr. 
Costa from California for 5 minutes to conclude this hearing.
    Thank you.
    Mr. Costa. Thank you very much, Mr. Chairman.
    And this was an important hearing with some very good 
witnesses. And I appreciated very much getting their insight on 
what is continuing to be a very vexing issue with the Russians' 
interference not only in our elections, but in Europe, what is 
obviously part of a comprehensive effort that Putin and his 
team have been planning on for Western democracies.
    To what extent on the Russian disinformation that we have 
discussed here this afternoon draw upon and amplify on anti-
Semitism and other forms of prejudices, in your view?
    Mr. Kalensky. As I was trying to describe in the written 
testimony, it is always about finding the most pulsating 
weakness that the particular, that the given audience might 
have. And in some audiences, it might be anti-Semitism. So, 
yes, in some audiences you would find that the anti-Semitic 
remarks are being played.
    If I am not mistaken, it was nice research by Kate Starbird 
from University of Washington in Seattle, where she was looking 
at which accounts and which sites were pushing the lies about 
White Helmets. And she found out that very often they were 
obviously pro-Russian, or almost in all cases.
    But she even found out that you would find there 
aggressively pro-Zionistic websites, but also aggressively 
anti-Semitic websites. So it is always about playing both parts 
of the extreme, because if you manage to play both parts of the 
extreme, you will have a more polarized discussion, more 
hysterical, less rational. And less rational people are more 
vulnerable to disinformation.
    Mr. Costa. Well, and you are playing upon the populism and 
the nationalism that is taking place not only in this country, 
but in Europe as well. And a lot of that deals with not only 
the misinformation that is rampant, but also the fact that a 
lot of people are relying on social media to get their 
information, which I think is part of the problem when we look 
at the totality of what we are dealing with here.
    Mr. Kalensky. Sometimes. But, you know, sometimes I have a 
feeling, especially here in the United States, that the 
importance of social media is a bit overemphasized.
    And, for example, in the country where I come from, you 
have a huge group that is not present on social media, and yet 
they consume heavily polarized and disinformation messages, for 
example, via chain emails. And you would really have half of 
Europe and half of Europe's pensioners consuming information 
via this channel. They are not on Twitter, they are not on 
Facebook, and they do not turn on the TV news because everybody 
is lying.
    Mr. Costa. Yes. Well, has there been any, either among 
either of you or with other efforts that we are trying to get a 
handle on this, a collection of information that tries to 
measure to what success these disinformation campaigns have had 
success in elections or the impacts of these campaigns? And how 
much evidence do we have regarding the Russian efforts on the 
spread of disinformation like in the Brexit vote?
    Mr. Kalensky. That is, again, part of the trouble. We do 
not actually research this enough. There are not enough people 
focusing on the topic.
    I am aware of----
    Mr. Costa. Would that be something that you think that this 
committee should look at in a separate piece of legislation of 
trying to collect and gather that data, that information?
    Mr. Kalensky. I believe----
    Mr. Costa. Yes, if you would like to respond, please.
    Ms. Aro. I am sorry.
    Yes, definitely. I also proposed in my written statement 
that because part of the problem is really that we do not 
even--at the moment, we do not even know what kind of 
operations we are targeted to. We might know in 2 years, when 
someone starts to really investigate them. But we should 
address and counter these operations while they are ongoing, 
because they take effect like that.
    Mr. Costa. So, Mr. Chairman, this is something that I think 
we should try to look into, I mean, to measure this. We have 
all of this work, and we should probably sit down with you 
folks to get that.
    Finally, my time is expiring, but I guess the--as chairman 
of the Transatlantic Legislators' Dialogue, I know our European 
colleagues are as concerned about this as we are. And to what 
effect do you think that they had on the most recent 
parliamentary elections that just finished in May in the EU? Do 
we have any idea?
    Mr. Kalensky. How impactful were the operations?
    Mr. Costa. Yes.
    Mr. Kalensky. Unfortunately, again, we do not have the 
measure. So what we saw, for example, from the data of the East 
StratCom Task Force, the team where I used to work, their 
numbers show that the amount of disinformation cases in 2019, 
before the elections, has actually doubled compared to the same 
period in 2018. There were two times more disinformation cases 
that the StratCom unit has identified.
    So you would see that there was probably more--more of 
disinformation, more disinformation messages. But measuring the 
impact, this is unfortunately a thing that not too many 
government agencies are doing, as far as I know.
    For example, I know about a very nice book by Professor 
Kathleen Hall Jamieson from University of Pennsylvania about 
cyber war and about the effect that the Russian disinformation 
operations had on the U.S. elections. Unfortunately, you would 
not see that many investigations in Europe.
    Mr. Costa. Well, Mr. Chairman, my time has run out. I want 
to thank you for calling this hearing. And maybe this is 
something that, with your subcommittee, we could work together 
with our European counterparts to really take a deep dive in 
trying to measure what really is taking place, both here and 
Europe, in a way in which we could use it to protect ourselves 
from further elections--in future elections.
    Mr. Keating. Great. Thank you. This will be a continuation 
of those efforts.
    I am just reminded as we close that Russia and the things 
that they have done, these attacks, are like bullies. And many 
times bullies cannot build themselves up. If they cannot stand 
on their own success and merits, they have to tear others down.
    And that is what is happening with the Russian leadership. 
It is certainly not the case with the Russian people.
    I believe that today's hearing, I hope, will help the U.S. 
and the West work together and make sure that we realize this 
threat and that we address it as successfully as we can. And 
that means working together to address that threat.
    So I want to thank you for a very important hearing, and we 
will continue on this together.
    With that, I adjourn the hearing.
    [Whereupon, at 3:54 p.m., the subcommittee was adjourned.]

                                APPENDIX
                                
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
